LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 20, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-1067: NEAL N. BROWDER, CITY OF SAN DIEGO, AND SHELLEY ZIMMERMAN V.
S.R. NEHAD, K.R. NEHAD, AND ESTATE OF FRIDOON RAWSHAN NEHAD
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on July 20,
2020, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020 on the following counsel for the Respondents:
RESPONDENTS:
Jennifer Mira Hashmall
MILLER BARONDESS LLP
1999 Avenue of the Stars, Suite 1000
Los Angeles, CA 90067
310-552-4400
mhashmall@millerbarondess.com
This service was effected by depositing one copy of a Reply to Opposition to
Petition for a Writ of Certiorari in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of July 2020.

